<html>
<title> - [H.A.S.C. No. 115-15] THE EFFECT OF SEQUESTRATION AND CONTINUING RESOLUTIONS ON MARINE CORPS MODERNIZATION AND READINESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 115-15]

                      THE EFFECT OF SEQUESTRATION
                     AND CONTINUING RESOLUTIONS ON
                       MARINE CORPS MODERNIZATION
                             AND READINESS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 10, 2017


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     
  
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-047                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
 
 
 
 
 
 
 
 

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     (Vacancy)
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Thomas, LtGen Gary L., USMC, Deputy Commandant for Programs and 
  Resources, U.S. Marine Corps...................................     4

                                APPENDIX

Prepared Statements:

    Thomas, LtGen Gary L.........................................    29
    Turner, Hon. Michael R.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Carbajal.................................................    46
    Ms. Rosen....................................................    44
    Ms. Tsongas..................................................    44
    Mr. Turner...................................................    41
    
    
    
    
    
THE EFFECT OF SEQUESTRATION AND CONTINUING RESOLUTIONS ON MARINE CORPS 
                      MODERNIZATION AND READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                            Washington, DC, Friday, March 10, 2017.
    The subcommittee met, pursuant to call, at 9:04 a.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. Good morning. This hearing will come to order.
    The subcommittee meets today to continue informing our 
members and the public about the ongoing readiness crisis that 
all of our military services find themselves in. Readiness 
includes many things, such as end strength, training, and 
modernization.
    Today, we will focus on how sequestration and years of 
continuing resolutions [CRs] in our budgetary process have 
impacted the Marine Corps' ability to modernize the current 
force to be ready and capable against current and emerging 
threats. We will have a similar hearing planned with the Army 
next week.
    I would like to welcome our witness, Lieutenant General 
Gary L. Thomas, the Deputy Commandant for Programs and 
Resources, United States Marine Corps.
    General Thomas, we thank you for your service, and we look 
forward to receiving your important testimony today.
    Today's hearing will allow us for a much deeper review of 
the modernization and readiness challenges identified by the 
Assistant Commandant of the Marine Corps [ACMC] during last 
month's full committee hearing on the state of the military. 
Based on his testimony, we know that the Marine Corps is not 
only out of balance, but also lacks the necessary resources 
needed to rebalance itself. This is a dangerous trend that we 
must reverse for the Nation's expeditionary force in readiness.
    As such, General Thomas has been asked to address and 
identify: one, the near- and long-term impacts that continuing 
resolutions and sequestrations are having on the Marine Corps' 
ability to modernize and ready its forces; two, the specific 
impacts to ground system and rotorcraft modernization programs; 
three, the processes the Marine Corps is utilizing to 
prioritize modernization requirements in order to address 
immediate and near-term capability gaps in a budget-constrained 
environment; four, where the Marine Corps should be focusing 
its modernization strategies across the Future Years Defense 
Programs in order to address anticipated security environments; 
five, the potential resources that would be required to support 
these strategies.
    To be clear about these resources, the top line is the 
issue. I support the President's commitment to rebuild the 
military, as well as his early directive to Secretary Mattis 
that, quote, ``to pursue peace through strength, it shall be 
the policy of the United States to rebuild the United States 
Armed Forces,'' close quote.
    However, early reports indicate that the administration's 
plan is to offer a budget of $603 billion as a base for defense 
in fiscal year 2018. I agree with Chairman Thornberry that a 3 
percent increase above President Obama's budget request from 
last year is not enough. While we cannot repair all of the 
damage done as a result of sequestration in a single year, we 
can and should do more than this level of funding will provide.
    For national security reasons, we cannot afford to wait 
until 2019 to begin the process to rebuild our military. I look 
forward to working with the administration in order to increase 
the fiscal year 2018 budget to get as close as possible to the 
$640 billion number referenced in Chairman Thornberry's views 
and estimates letter that was sent to the Budget Committee.
    Before we begin, I would like to turn to my good friend and 
colleague from Massachusetts, Niki Tsongas, for any comments 
that she might want to make.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good morning.
    And welcome, General Thomas. Thank you for making the time 
to be with us today. We appreciate it.
    Before we begin, I would be remiss if I didn't mention the 
ongoing investigation into the unauthorized sharing of 
photographs by marines and former marines. Let me be clear: 
These actions are reprehensible, harmful to our military and 
our national security, and detrimental to not just service 
women, but to all service members and to the culture of our 
Armed Forces.
    We must strongly support those who had their rights and 
privacy violated and make sure they have all the resources they 
need. But we must also fully investigate these acts and bring 
to justice those who violated the law and the rights of other 
service members.
    I appreciate the fact that the Military Personnel 
Subcommittee will be receiving briefings from the Marine Corps 
next week, and I look forward to hearing what the service is 
doing to make sure that those responsible are held accountable.
    Today's hearing on Marine Corps modernization provides this 
subcommittee with an opportunity to hear testimony on the 
effects of continuing resolutions and sequestration, an 
important topic, and also gives us a chance to review several 
major programs and consider how best to equip the Marine Corps 
of the future.
    While I look forward to getting into the details on a few 
major programs, I would also like to discuss what seems like an 
imbalance in the Marine Corps budget and, in particular, its 
procurement accounts. Specifically, for many years, the Marine 
Corps has requested and received vastly more funding for 
procuring aircraft as compared to ground equipment. While the 
Marine Corps certainly has a need for aircraft of many types, 
the ratio of spending on aircraft compared to ground equipment 
is striking.
    The fiscal year 2017 budget request was no exception to 
this trend. In it, the Marine Corps requested approximately 
$1.5 billion for procurement of ground equipment and 
ammunition. However, in the same President's budget [PB], it 
requested $5.3 billion for just five aircraft programs: the F-
35B Joint Strike Fighter, the CH-53K King Stallion helicopter, 
the V-22 Osprey, the AH-1 attack helicopter, and the KC-130 
refueler.
    While the individual aircraft programs in question are 
likely very important when taken individually, the scale of the 
imbalance, more than 3-to-1 in just this fiscal year, suggests 
that upgrading aircraft is currently valued higher than 
upgrading ground equipment. I have some concerns about this 
ratio of spending on aircraft versus ground equipment, given 
the Marine Corps' mission to be the premier force in readiness, 
and the historical reliance that the Nation has placed on the 
Marine Corps' role in ground combat.
    I look forward to hearing more about how the Marine Corps 
is making tradeoffs in its modernization efforts and what risks 
are associated with those choices.
    And, with that, I yield back. And I look forward to hearing 
from you, General.
    Mr. Turner. Thank you, Ms. Tsongas.
    While not the subject matter of this hearing, I share Ms. 
Tsongas' concern of the allegations of improper behavior from 
marines.
    A part of the great working relationship that Ms. Tsongas 
and I have is the history of being the co-chairs of the Sexual 
Assault Prevention Caucus for over the last 5 years. We have 
been the major authors of every piece of legislation that has 
been in the National Defense Authorization Act concerning this 
issue.
    It is one that is of grave concern to us, because no one--
no one--should feel as if they are in a compromising position 
in serving their Nation. And we want to ensure that not just 
those who have been subject to sexual assault, but those who 
fear of the consequences and of the potential are protected.
    We are beginning our work and our investigation today after 
this hearing in a series of meetings that we have requested 
with the Marines on a briefing on this matter. And I am certain 
that our Sexual Assault Prevention Caucus will be very active 
in looking not only, as Ms. Tsongas had said, for issues of 
justice and accountability, but also ways in which we can 
impact future actions and prevention.
    With that, General, I turn to you on our subject matter.

STATEMENT OF LTGEN GARY L. THOMAS, USMC, DEPUTY COMMANDANT FOR 
           PROGRAMS AND RESOURCES, U.S. MARINE CORPS

    General Thomas. Chairman Turner, Ranking Member Tsongas, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before the subcommittee today. I am 
honored to represent your Marines and testify on the effect of 
sequestration and continuing resolutions on Marine Corps 
modernization and readiness.
    Our role as America's naval expeditionary force in 
readiness informs how we man, train, and equip our force. It 
also drives how we prioritize and allocate the resources that 
we are provided by Congress.
    As we have experienced budget cuts and fiscal uncertainty 
over the past several years, we have prioritized the readiness 
of our forward-deployed forces. But in order to maintain this 
readiness, we have assumed risk in our nondeployed forces, 
infrastructure sustainment, and, most critically, 
modernization.
    Over time, this has resulted in maintaining older or 
obsolete equipment at higher cost and more operational risk. As 
we continue to spend limited resources to sustain legacy 
systems developed for threats of the past, we risked steadily 
losing our competitive advantage against potential adversaries.
    The future operating environment is characterized by 
complex terrain, technology proliferation, information warfare, 
the need to shield and exploit signatures, and an increasingly 
nonpermissive maritime domain. The threats of the 21st century 
demand a modernized force with new capabilities that complement 
our traditional warfighting skills and equipment.
    The Marine Corps has learned to live with less and to 
manage the instability brought about by continuing resolutions 
and sequestration. We will always strive to be good stewards of 
what we are given and will generate the maximum readiness 
possible with the resources provided. But to be prepared for 
crisis response and contingency now and in the future, we must 
invest to restore readiness and achieve the right balance of 
capability and capacity.
    The Marine Corps is short of the resources required to 
effectively modernize, and we do not have the budget 
predictability that would allow us to optimize the resources 
entrusted to us by Congress. The uncertainty of the current 
fiscal year and looming threat of BCA [Budget Control Act] caps 
continue to disrupt our planning and directly challenge our 
current and future readiness. With your help, we can begin to 
overcome these challenges and ensure that the Marine Corps is 
postured for the 21st century.
    Again, thank you for the opportunity to appear before the 
subcommittee, and I look forward to your questions.
    [The prepared statement of General Thomas can be found in 
the Appendix on page 29.]
    Mr. Turner. General Thomas, I understand that the Marine 
Corps has conducted a bottom-up review entitled ``Marine Corps 
Force 2025.'' It has identified several capability and capacity 
gaps which need to be addressed. Would you please elaborate on 
some of those findings? And, specifically, what levels of 
additional funding would be required to begin addressing these 
gaps?
    And I want to emphasize the word ``required.'' We can't 
wish our way into filling those gaps. And it is obviously an 
issue of resources and not just the Marine Corps deciding to 
undertake addressing them.
    General Thomas.
    General Thomas. Thank you, Congressman.
    I would just begin by saying, you know, that we feel that 
we are not optimized in our organization, training, and 
equipment for the new operational environment----
    Mr. Turner. I am sorry, General. Could you move closer to 
the microphone? Because it is not registering you very well.
    General Thomas. I am sorry.
    The first thing I would say is that we feel that we are not 
optimally organized, trained, or equipped to meet the emerging 
operational environment.
    One of the things that has occurred over the past 15 years 
is the change in threat capabilities. And while we have 
overmatch in most areas, we are seeing in some cases that our 
potential adversaries are developing capabilities that rival 
and in a few cases exceed our own.
    The capability gaps that we have seen are largely in terms 
of force protection first. If you look at some of our current 
vehicles, they no longer are adequate for the types of threats 
that they face in terms of protecting our marines. Programs 
like the Joint Light Tactical Vehicle begins to get at that 
threat, and new technologies like active protection systems 
will assist us in going up against counter-armor capability.
    The other challenge that we face in terms of capability 
gaps is an emerging UAS [unmanned aircraft systems] threat, and 
we have to be able to counter that capability. One of the ways 
that we have to counter that is be able to find it, to ID 
[identify] it. Again, we have a program in place with the G/
ATOR [Ground/Air Task Oriented Radar] radar that performs an 
important piece of that kill chain function.
    In terms of maneuver, our current amphibious vehicle is 40 
years old. With the Amphibious Combat Vehicle [ACV], that 
addresses that need.
    And then, in terms of capacity, we have several shortages 
in terms of munitions and then just numbers of ready aircraft 
on the flight line. Many of our aircraft have met or even 
exceeded their planned service life, and so, as a result, many 
of those aircraft, much more than we would like, are in depot 
maintenance, and that means less on the flight line. Again, we 
have programs in place, in the JSF [Joint Strike Fighter] and 
CH-53K in particular, to address those challenges.
    In terms of additional resources that we need, we need 
additional funds above the PB 2017 request. The ACMC, in his 
testimony, talked about $4 billion, top line. But regardless of 
the top line, what we are seeking to do is to modernize, and 
then whatever is required to modernize, we would address other 
areas appropriately.
    Mr. Turner. General, I have stood in front of a bunch of F-
18s that were disassembled. Would you please speak as to how 
your readiness in aircraft affects training and, therefore, 
affects readiness in pilots? And also talk about the need for 
growth in the Marine Corps and how that is accomplished and 
measured as we look to increasing the size of the force.
    General Thomas. Congressman, with the help of Congress over 
the past few years, we have actually seen an uptick in 
readiness. But, overall, the readiness of our aviation forces 
as well as the number of pilot hours per month is still much 
lower than we would like.
    The readiness that we desire for aviation is about 75 
percent of our fleet. Nominally, across the entire fleet, we 
are down around 45 percent. And then the average flight hours 
per pilot per month is, you know, about 10 hours or less. That 
has----
    Mr. Turner. Sorry. Could we go back for a second? You just 
said you want to be at 75. You are at 40-what?
    General Thomas. Forty-five percent.
    Mr. Turner. Okay. But you began by saying we have been 
improving. So, I mean, that is pretty abysmal. To have that be 
closing the gap, we must have been in dire straits.
    General Thomas. So, Congressman, I just wanted to 
acknowledge that, you know, we have received some assistance 
over the past few years from the Congress, and that has helped 
some, but you are right, the gap is still very wide.
    I think a lot of it just has to do with, you know, old 
metal. You were talking about F-18s. That is the community that 
I come from. A year ago, I was back in Beaufort walking the 
flight line, similar to what you did. And I noticed an 
airplane, a bureau number that I recognized that I had flown as 
a first lieutenant----
    Mr. Turner. Just one question. Still, I am struggling with 
this. At 75, is that a reduced goal? I mean, because that is 
still one in four, right?
    General Thomas. No. Seventy-five percent readiness is a 
reasonable readiness of, you know, aircraft across a fly line. 
You are always going to have, you know, routine maintenance 
that you are going to take airplanes off the fly line. So if 
you have a 75 percent readiness rate, you can perform all of 
your missions. Obviously, we are well below that.
    Mr. Turner. Yeah, we are currently below half.
    General Thomas. Correct.
    Mr. Turner. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    General, I would like to circle back to the question I 
posed in my opening statement, and that is just how you are 
thinking through the priority that the Corps has placed on 
aviation assets in comparison to ground capabilities and just 
get your take on what risks you see for the Marine Corps, given 
that 3-to-1 ratio.
    Do you believe these risks are manageable? And do you see 
in the future the Marine Corps shifting the other way to focus 
more modernization dollars on ground capabilities in the 
future? Do you have a plan, you know, whatever, looking out, so 
that you are covering all the necessary bases in order to meet 
the challenges you have to confront?
    General Thomas. Congresswoman, I would characterize how we 
have allocated our modernization portfolio is balanced. We are 
not balanced across the Marine Corps because we haven't been 
able to put as much into modernization as we like because we 
have been applying our resources writ large to near-term 
readiness. But in terms of the resources that we have been able 
to apply towards modernization, we do feel like we are 
balanced.
    We have several needs, both on the aviation side and on the 
ground side. It is true that we have, you know, a 3-to-1 ratio 
in terms of aviation versus ground, but a lot of that is just 
the nature of aviation platforms and the relative expense to 
ground equipment.
    But if I could paint a picture, I would just say, on the 
aviation side, you know, our CH-53Es are over 30 years old; our 
F-18s are over 30 years old. On the ground side, you know, our 
Amphibious Assault Vehicle, 40 years old; our LAVs [Light 
Armored Vehicles], over 30 years old.
    So we have programs in place to address all of those. We 
haven't been able to, you know, modernize as quickly as we 
could to get out of the old metal. But in terms of balance, we 
feel that we have got it about right.
    When we spoke, you know, the other day--you know, we are a 
light, general-purpose force. One of the things that gives the 
Marine Corps an advantage on the battlefield is its mobility 
and its fires. Much of that comes from aviation. The ground 
side in terms of fires, mobility, those are equally as 
important. But if we were just to look, relatively, how we are 
investing across aviation and ground, not looking at the cost, 
although there are significant differences there, but in terms 
of capability and capacity, we think we are balanced in that 
area.
    Ms. Tsongas. Well, do you foresee a time in which that 
balance will have to shift a bit?
    And, actually, in that context, I would just like to ask a 
question about the CH-53K helicopter program related to cost.
    So the original unit cost for this program in current-year 
dollars was about $95 million. Last year's Selected Acquisition 
Report for this program showed that its average unit cost had 
increased 14 percent above the baseline estimate to $116 
million. This week, the Marine Corps provided information to 
the committee indicating that it is now projected to be 22 
percent above the baseline estimate, which would be about $122 
million a copy.
    The Marine Corps intends to buy 200 of these aircraft. So 
that cost growth multiplied by 200 is a heck of a lot of money. 
And even if there is no additional cost growth, it seems worth 
pointing out that $122 million per aircraft in 2006 dollars 
exceeds the current cost of an F-35A aircraft for the Air Force 
by a significant margin.
    So, while I know this helicopter will provide the Marine 
Corps a very unique and useful capability, I would like to ask 
you two things. First, can the Marine Corps really afford 200 
of such an expensive helicopter? And, second, in comparison to 
how little the Marine Corps is spending on upgrading ground 
combat equipment, does the scale of this investment in niche 
aircraft capability make sense for the Marine Corps?
    And, again, it gets back to that 3-to-1 ratio. And, again, 
you know, given this helicopter, this aircraft, just the 
extreme cost of one unit, at some point it seems to me there 
might be an imbalance.
    General Thomas. Congresswoman, we are always paying very 
close attention to the cost. You mentioned the $122 million 
price point. We anticipate that the unit recurring flyaway when 
the aircraft begins full rate production will shrink below $89 
million. That is still very expensive, and we are working very 
hard with the program office and the vendor to keep the cost 
down and to drive value for the taxpayer.
    In terms of, you know, can we afford it, we do have a plan 
within our top line that would account for the purchases of the 
new aircraft that we desire.
    In terms of getting back to your question about the 
balance, we intend to address all of the concerns on the ground 
side that I am sure we are going to discuss here in just a 
moment. We have good programs in place, we believe, that meet 
the capability requirements at reasonable cost to the taxpayer. 
But we have found, both on the ground side and the aviation 
side, is we simply don't have the resources to do, you know, 
either one at the rate that we desire.
    Ms. Tsongas. Well, I think it is worth bearing in mind that 
this is a very costly aircraft, that you have large numbers in 
mind. And while, yes, the impacts of sequestration have been 
great, continuing resolutions great--and we will debate how 
many much more investment we need to make in defending our 
country--as a country, we also have many other needs. And we 
have to bear that in mind as each service makes its 
commitments.
    So I thank you for your testimony, and I yield back.
    Mr. Turner. Thank you.
    In looking at the members who are currently in attendance 
and the fact that we have votes at about 10:30, we have just 
enough time for everyone to get a question in, as long as 
everybody complies with the 5 minutes. So I am going to ask 
people to be diligent in that.
    And we will start first with Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    General, thank you and all the members of the Corps for 
their service.
    You started to tell us you were walking a flight line and 
you spotted the plane that you flew or a model that you flew?
    General Thomas. Congressman, you know, as aviators, when 
you are in a squadron, you become familiar with the bureau 
numbers of the airplanes that you have flown. So it was just a 
bureau number that I recognized and had flown over many years 
early in my career, and it was still in active service. So, 
again, a good capability for the Nation; it is just that the 
fact is the bones are old on some of these machines.
    Mr. LoBiondo. So what plane was that?
    General Thomas. It was an F-18.
    Mr. LoBiondo. And how old was it?
    General Thomas. It was 30-plus years old. I am not sure 
exactly the age.
    Mr. LoBiondo. Okay.
    Can you tell us what the current state of readiness is for 
the Marine Corps rotorcraft?
    General Thomas. Congressman, as I mentioned, we have seen 
some improvement over the past few years with some help from 
Congress, but our readiness is still below where we would like 
it to be.
    Our number-one degrader, if you will, has been supply--
essentially, parts and the funding for that. We still take 
aggressive steps to help recover that readiness. We have 
conducted what we are calling independent readiness reviews for 
all of the rotorcraft that we have. And we are also taking 
steps to making sure that we are doing everything we can to 
lower lifecycle costs.
    An example of that would be what we are doing with the MV-
22. We have several different configurations of the airplane, 
just as over time they roll off the line. They have different 
parts. And we are seeking to drive that down to a common 
configuration, which will drive down lifecycle costs over the 
long term.
    But in terms of certain airplanes, with Congressman Tsongas 
we have already talked about the CH-53. Again, those airplanes 
are greater than 30 years old, and we have flown them pretty 
hard over the past 15 years in Afghanistan.
    Mr. LoBiondo. General, what would you say would be the top 
two or three unfunded readiness priorities that you have?
    General Thomas. Our top three priorities, I would say, on 
the ground side would be our Amphibious Combat Vehicle, it 
would be the G/ATOR radar, and the Joint Light Tactical 
Vehicle.
    Mr. LoBiondo. Are we likely to make any progress with that 
with what we are looking at here in the near future?
    General Thomas. Congressman, we are making progress. Again, 
we have programs in place--vehicles like the Joint Light 
Tactical Vehicle, we have requested a number in 2017, and that 
number will ramp up as we go out.
    The challenge that we face is not having programs in place 
that provide the capabilities that we need. The challenge that 
we have is we simply don't have enough resources to buy them at 
the rates that we desire. So the transition to new equipment is 
very slow.
    Mr. LoBiondo. Very slow. Okay. Thank you.
    I yield back.
    Mr. Turner. Ms. Rosen.
    Ms. Rosen. Thank you, Mr. Chairman.
    Thank you, Ranking Member Tsongas.
    And I really appreciate your being here today and 
explaining all this to us.
    What I would really like to ask on another question is 
this. The Trump administration has suggested that we go from 24 
infantry battalions to 36. What are the challenges to create 
over a dozen--potentially a dozen new battalions? And how do 
you see that fitting in with what you are going to ask for?
    General Thomas. Congresswoman, I would characterize that 
question this way--or the answer to that question is, as the 
Commandant says, we do need to grow, because we need additional 
capabilities primarily in areas such as cyber, EW [electronic 
warfare], and additional intel [intelligence] capacity. Those 
are the capabilities that we would grow as a part of growing 
to, for example, the 185,000 that was approved through the NDAA 
[National Defense Authorization Act].
    We also have capacity challenges. Our deployment-to-dwell 
ratio still remains very high. Prior to 9/11, I would say for 
every deployment you had three times that period, you know, at 
home. Our average, you know, dep-to-dwell is, you know, around 
1 to 2.2 to 2.3. So growth would provide capacity as well.
    But, to your question, you have to balance any growth with 
the equipment that you need for those new people, the training 
and infrastructure that is required to get those marines ready 
for their particular mission, and then, of course, 
modernization.
    So the plan to grow in this year to 185K will give us 
additional capability, primarily in those areas--cyber, EW, and 
intel--that I mentioned, as well as some relief on capacity. 
However, we will not grow any more--or we will only grow 
relative to the additional resources that are provided.
    One of the things that we are trying to do, getting back to 
Congresswoman Tsongas' question, is we are trying to protect 
our modernization accounts. Over the past, you know, several 
years, with the BCA and sequestration, our investment in 
modernization has been as low as 7 percent. In our request for 
2018, we are going to raise it to 10 percent, and our goal is 
to get to 15 percent of our portfolio in modernization.
    All of those things impact our ability to grow. So we will 
stay in balance, and then we will only grow as additional 
resources become available.
    Ms. Rosen. I have one more quick question. And you talked 
about drones, the unmanned aerial flying. How does that reduce 
the number of manned flights? And how do you work--I know it is 
not a short answer, but doesn't it reduce the number of manned 
flights, therefore reducing the amount of stress on the 
aircraft?
    General Thomas. It can. But, you know, whether you have an 
unmanned, a UAS, or a manned aircraft, you are still putting, 
you know, hours on that particular--so if it is a new unmanned 
system, it is going to do fine. If it is an old unmanned 
system, you are going to have some of the same challenges.
    But, to your question, you know, we are always looking for 
the right capabilities, and if that right capability is in an 
unmanned system, then we are going to pursue that.
    Ms. Rosen. Thank you.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Thank you very much, Mr. Chairman.
    General, it is good to see you again. Thanks for answering 
a lot of my questions that I brought up about reactive armor.
    Part of the problem, at least from my perspective, is the 
tempo of ops [operations]. And this has been around as long as 
I can remember in the Marine Corps, when I was in there, and 
that op plan--umpty ump, umpty ump, umpty ump, umpty ump. It 
keeps going on and on and on.
    You can only so do so much. And I always thought, when I 
was a captain many years ago, that we were overly committed, 
because we are going to do NEO [noncombatant evacuation 
operation] ops, we are going to do this, this, and this. And 
Congress is going to ask you and all the armed services to 
continue to do that, because you do it well. But do we have to 
be more realistic in terms of the impact of the sequester and 
the fact that a lot of this equipment is aging and we have to 
fix that stuff?
    General Thomas. Congressman, you know, you brought up an 
important point. In any equation, you know, we talk about 
resources, but the other side of the equation is demand signal. 
And the higher that demand signal is, you know, the greater--
you are going to use up your resources at a greater rate.
    So that is clearly something that, you know, the Nation has 
to consider. Where we, the Marine Corps, bases its requirements 
on is based on what we have been asked to do and the missions 
that we have been given by senior leadership.
    Mr. Cook. Well, you know, many years ago, in 1966, I was at 
Francis Marion. And we had an exercise where we actually went 
over the side in the nets. Now, I know I am old, but this was a 
ship that, basically, it was 11 years since World War II. But 
now we are talking about aircraft and items that are around 30, 
40 years. It is just almost incomprehensible, with the changes.
    Anyway, readiness indicators. I think at least in my short 
time on this committee, I think there has been more attention 
to readiness indicators. I think congressional Members are 
going to be asking more and more about why is it unit C-4 or C-
3; how come more units aren't C-1 and C-2?
    And I think that pressure is going to continue, unless I am 
wrong, because I say to myself, just like the previous 
question, where the money should go. How are we going to bring 
these units up to speed? Is it just money or--I think you 
answered the question already--is it the supply block, 
maintenance, everything else which had been overlooked?
    And I know we had talked about this a little bit. How are 
we going to correct that maintenance--General Dunford had 
talked about this earlier. How are we going to fix--do we just 
have to say ``time out''? We have to have our maintenance game 
in play, or we are never going to get there?
    General Thomas. Congressman, you alluded to it, but, I 
mean, there are several factors that come into bear. A lot of 
it is resources. Some of it is time. That is, you know, you use 
your equipment and your people up--you know, there is a period 
of time that is required to get the equipment and the people 
back up into fighting standard.
    And then the third aspect of it is just--it is 
recapitalization. That is, we can apply resources to many of 
our old pieces of equipment. And in many cases, we can continue 
to use them for many years to come, but in some cases, there is 
a diminishing return. That is, you are spending resources to 
keep old equipment going, but you are getting less and less 
return on investment.
    Mr. Cook. Yeah.
    Is the IG [inspector general] specifically looking at units 
that are C-4 or C-3 on how to best solve that problem, with a 
report to the Commandant?
    General Thomas. I think there are a number of looks within 
the naval aviation enterprise, the DOD IG. Many people are 
looking at the areas that you describe in an attempt to provide 
more clarity to the discussion and what would be required to 
address those.
    We feel like we have a good understanding of what is 
required to address it, and you have alluded to some of those.
    Mr. Cook. Thank you very much. Thank you for being here.
    I yield back.
    Mr. Turner. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair and Ranking Member 
Tsongas.
    Thank you, Lieutenant General Thomas, for being here. It is 
always a good day when marines are in the room, being a marine 
myself.
    You know, I also share what Ranking Member Tsongas shared, 
her concerns about the denigration, the allegations that we 
heard of the circulation of photographs regarding women 
marines. It is very concerning. And I do hope that there is an 
expeditious adjudication of the perpetrators and that they are 
brought to justice as soon as possible.
    To that end, General Thomas--Lieutenant General Thomas--it 
is my understanding the Marine Corps has been working on 
developing body armor that provide better fit and coverage for 
female marines. There were some concerns that the Marine Corps 
was just developing more sizes rather than developing female-
specific body armor.
    Can you update this subcommittee on what approach the 
Marine Corps is taking and where we are in terms of getting 
these body armors to our female marines?
    General Thomas. Thank you, Congressman.
    The Marine Corps is committed to providing high-quality 
force protection for all of its service members in terms of 
form, fit, and function and regardless of gender.
    One of the policy changes that have been made in terms of--
previously made in terms of how we, you know, build our force 
protection equipment, we used to have sizes that would only be 
from the 5 percentile to the 95 percentile of marines writ 
large. The new policy is down to the 2 percentile female on one 
end of the spectrum, all the way up to the 98 percentile male. 
And the reason I highlight the male in this case is because we 
have actually had, you know, males who were very, very large 
and they didn't have adequate protection as well.
    We think that we have two pieces of gear, primarily. We 
have the plate carrier and the IMTV [Improved Modular Tactical 
Vest]. The plate carrier, we think, is in a good position for 
females and males. It is 2 pounds lighter. And we believe that 
we have the right sizes for females as well as some of the 
larger males.
    The IMTV is an area that we have also added additional 
sizes. One of the things that we found was that they were too 
long, in some cases, in the small, medium, and large sizes. So 
we have added, you know, a small short, a medium short, and a 
large short, much like we do with our camouflage utilities.
    And, if I could, you know, one of the things that 
Congresswoman Tsongas and I discussed the other day, she had a 
question about, you know, fit, specifically for females, and 
one of the things I did learn is that the Army, you know, has--
in their particular sets, they have included some features that 
will help fit a female. We continue to look at those, and we 
are closely aligned with the Army, but we don't have those 
specific features incorporated into our equipment yet.
    Mr. Carbajal. Well, Lieutenant General Thomas, I would say 
we should be, at the very least, at the same standards that the 
Army has for adapting our armor for women. And I don't think it 
bodes well for us to not be at least on par in appreciating our 
female marines as the Army seems to be appreciating their women 
soldiers.
    So I just want to encourage us to get going, because it 
just doesn't bode well. Especially when you consider incidents 
that we are dealing with, the allegations that we are dealing 
with, it just doesn't bode well for the type of institution we 
want to portray to our country and women marines and females in 
general.
    So thank you.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman and Ranking Member.
    And thank you, Lieutenant General Thomas. And just for 
shortness, I am just going to say ``General Thomas.'' I 
understand you are a lieutenant general.
    One of the things that Ms. Tsongas talked about was the 
cost of the aircraft versus the ground stuff. Is some of that 
just not the cost and procurement and research for a F-35 
versus a Joint Light Tactical Vehicle?
    I mean, the costs associated with those things on the 
ground are just much cheaper whether you buy them on bulk. The 
cost of an asset on the ground is generally cheaper than that 
in the air. Is that correct or incorrect?
    General Thomas. That is correct. I mean, you know, buying a 
car as opposed to a 737, I mean, there is that difference that 
you are going to have. So anything that flies nominally is 
going to be more expensive.
    But, you know, the question is a good one. That is, you 
know, are we balanced across, you know, the very important 
needs on the ground side as well as the aviation side.
    Mr. Kelly. And I think we need to be very conscious to make 
sure we keep those costs low, but it is just going to cost 
more.
    And then, once you have and procure that equipment, it 
costs more to maintain an F-18 or an F-35 than it does those 
ground vehicles also. Would that be correct?
    General Thomas. That is correct.
    Mr. Kelly. Now, going back, on the parts thing. And I have 
served in the Army, so I understand parts stockage and a lot of 
those things. Is our shortage of parts to keep our current 
fleets, whether it be aircraft or ground vehicles, is it a 
shortage of supply and not being able to get the parts? Is it a 
shortage of dollars?
    And how much do things like having OCO [Overseas 
Contingency Operations] funding, as opposed to top-line 
funding, affect your getting the correct stockage of parts to 
fix it when it breaks, as opposed to having to have it on order 
for 90 days?
    General Thomas. I think, to your last question, you know, 
we are very appreciative for OCO, and it helps us in many ways. 
As you may well be aware, there are sometimes limitations 
depending on the type of money that you get in terms of how you 
can actually spend it. And then there is also the issue of lead 
time for, you know, parts.
    But I would just say, broadly speaking, we know what our 
parts requirement is, and we know what the resources required 
to get those parts. We just haven't been able to afford the 
quantity that we have needed.
    Mr. Kelly. So it is a dollars, not a production, it is a 
dollars--in order to get the right stockage and to maintain 
that to fix the vehicles when they----
    General Thomas. By and large, that is correct.
    Mr. Kelly. Okay.
    And, I guess, during this period of reduced funding but not 
reduced missions or OPTEMPO [operations tempo], what types of 
investments has the Marine Corps sacrificed to sustain the 
deployable readiness level of operational forces?
    General Thomas. Congressman, we have, you know, sacrificed 
several areas in terms of modernization. You know, our end 
strength was kept down.
    One area where we have particularly felt--and I expect the 
other services have, as well--is in terms of home station 
readiness. That is important, because your home station 
readiness is your ready bench that is going to respond to 
crisis as well as major contingency. And the effect of having 
lesser home station readiness is that, when they do need to go 
forward, there is going to be a delay, because they are not 
going to either have the equipment or they are not going to 
have the readiness that they need.
    We have also seen sacrifices in terms of infrastructure 
sustainment, some quality of life. But as we, you know, have 
discussed already, I would say that the biggest sacrifices have 
been in terms of modernization, whether it is our long-range 
precision fires capabilities, some of the things we are trying 
to do to counter UAS.
    And then there is the aspect of maintaining older equipment 
at a higher cost with a lesser return on investment. So there 
is that aspect of it. You know, we didn't get that way 
overnight. We are not going to get out of it overnight.
    And, again, I would just emphasize what has changed, also, 
in addition to the resource environment, is the threat 
environment has changed. And that is just something that we are 
going to have to deal with going forward.
    Mr. Kelly. Mr. Chairman, I yield back. Thank you.
    Mr. Turner. Thank you.
    The order of the list is Bacon, Banks, Wittman, McSally.
    Going to Mr. Bacon.
    Mr. Bacon. Thank you, Chairman Turner.
    I really appreciate General Thomas being here today. I have 
to say for the record we have known each other since 2003, 
classmates. And I happen to know him as a humble leader with 
great character and morals, treats people great.
    So it is an honor to see you here today.
    I wanted to ask you a little more about the readiness 
levels and the spending cuts that we have had, you know, in 
recent years. And you have already mentioned the top 
priorities, so I will move to my next one. What would you like 
to do with electronic warfare if you were properly resourced? 
What areas would you want to expand in?
    General Thomas. I think, you know, we have--Congressman, 
first of all, it is good to see you again, sir.
    And in terms of electronic warfare, we have a pretty good 
understanding and a plan for where we need to get on the 
aviation side, you know, as part of the joint force and how we 
fit into that and working with our joint partners.
    Where we are seeing areas of growth is on the ground side. 
And we are also seeing the nexus of cyber and EW. And it is 
about providing the equipment that allows to you do that, but 
also now the organization that gives you that capability as 
well. As part of the 185K growth, the Commandant is growing 
what he calls a MEF [Marine expeditionary force] information 
group, and it will incorporate all the critical aspects of 
information warfare, to include additional intel capacity, 
cyber capacity, and, yes, the EW capability.
    We do have, you know, some very good EW capability on the 
ground side in terms of protection, you know, against IEDs 
[improvised explosive devices] and so forth. But our 
perspective is now broadening in terms of additional 
capabilities that we would need when you are going force-on-
force and being able to counter some of the EW capabilities 
that our adversaries are developing as well.
    Mr. Bacon. So if I understand right, with a little more 
resourcing, you are going to put a focus on cyber, 
intelligence, EW.
    And one other question for you. I was going to ask you a 
little more about ISR [intelligence, surveillance, and 
reconnaissance], but I think you just did that, to a degree. 
With our readiness levels being where they are at, what I found 
with all the services, and I believe the Marines too, we are 
focused on responding to Syria, Iraq, the Middle East right 
now. And that is what our focus area is for the folks back home 
getting ready to deploy, focused on that direction.
    How able are we to respond if we have a second trouble spot 
blow up in the world, say, like North Korea? With your 
readiness levels today, how are we positioned and what would be 
the roadblocks you are going to have to cross to get a force 
there quickly?
    General Thomas. Congressman, I will keep my comments, you 
know, more general in nature, but to paint a picture--and you 
correctly described. You know, the units that we are sending 
out the door today are trained to a high level, they are 
equipped, they have got what they need. But we are seeing, as 
you point out, a slow degradation of that ready bench. And that 
has been going on for several years now.
    The way that manifests itself, if you are talking a major 
contingency operation, plans call for certain units at certain 
times within so many days of a conflict beginning, and what we 
are seeing is delays at which those particular units can meet 
those. And, in some cases, those delays are significant.
    Mr. Bacon. Well, thank you. When our readiness levels are 
down, it undermines deterrence and it makes this world a more 
risky place.
    So, with that, I yield back, and I thank you for your 
testimony today.
    General Thomas. Good to see you, Congressman.
    Mr. Turner. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    General, thank you for being here today. Thanks for your 
service.
    You have made a compelling case overall today about the 
impact of the chaotic congressional appropriation process 
through funding the military through CRs, sequestration, the 
BCA. And while, statistically, that testimony is very 
compelling, I often find, as a new Member of Congress, as a 
freshman on this committee, that the anecdotal evidence is 
often even more compelling.
    When I read about marines raiding museums for parts for 
aircraft, or when I read stories about units from the 
chairman's home State of Ohio having to cancel training 
exercises in my home State of Indiana at Camp Atterbury because 
of government shutdowns and CRs and the congressional process, 
those anecdotal stories are often most compelling when I make 
the case to constituents at home about what is wrong with the 
processes here on Capitol Hill.
    And I wonder if you can--first of all, can you confirm 
those anecdotal examples? And give us more examples of the 
second- or third-order effects of what does it mean when we 
have to cancel a training exercise, what does it mean to morale 
when we have to raid museums for parts for aircraft, for 
example.
    General Thomas. Congressman, I would just say--and, 
generally, I mean, you know, the stories that you hear across 
the joint force as anecdotes, and, you know, to the extent that 
there are limits on anecdotes, but they are generally--they are 
accurate. What I have found is, you know, marines, they want to 
be marines, they want to be good at what they do, and they want 
to be trained to a high level. Part of that is making sure they 
have the resources for, you know, equipment, but training and 
other things that you have articulated.
    If I would characterize from a, you know, higher level just 
some of the additional challenges that we face with, kind of, 
the budget uncertainty, you know, it really makes it difficult 
for us to plan. We don't have predictability, and we feel like 
we are not optimizing the dollars that the Congress has 
generously allocated to us.
    It also slows our acquisition programs. In many cases, we 
have got the right program, but we are purchasing things at the 
minimum sustained rate. And what that means is that certainly 
has an impact on our industry partners, but we pay a premium 
for that. We are not achieving economic order quantities.
    And then there are all sorts of authorities aspects that--
authorities that we can't use, depending on the vagaries of 
budget challenges. For example, with the continuing resolution, 
you know, we can't do any new starts. That affects our research 
and development. It affects buying more quantities of a certain 
capability, even if we have the money to do that.
    And then, you know, as you have said, all of these things 
together, the uncertainty forces us to focus on the 5-meter 
target and focusing on that near-term readiness, but, 
meanwhile, our ready bench is being eroded.
    Mr. Banks. Thank you.
    On a final note, can you comment, maybe briefly, about the 
impact of these processes on the Reserve Component of the 
Marines, the undue stress applied to your reservists?
    General Thomas. I think, you know, at our level, it is all 
about managing risk, and we have to manage risk across the 
entire force. That has an impact on the Reserves, as well, in 
terms of equipment and training and so forth.
    You know, one of the things that we have, you know, 
struggled with is we would actually like to engage our Reserves 
more and send them on deployments. We just haven't been able to 
afford the additional O&M [operations and maintenance] 
required. You do pay a little bit of a premium to, you know, 
call up the Reserves or to activate them and send them on 
deployment, but we haven't been able to use that to provide 
some dep [deployment] tempo relief to our Active Duty forces.
    Mr. Banks. Thank you.
    I yield back.
    Mr. Turner. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Lieutenant General Thomas, thank you so much for joining 
us. We appreciate your leadership. And I am very proud to have 
Marine Corps Base Quantico in America's First District. We have 
a lot of great marines there, a lot of great things that go on 
there. So I appreciate that.
    I wanted to talk to you about the AAV [Amphibious Assault 
Vehicle] and subsequently the ACV. I had an opportunity a 
couple weeks ago to visit Textron just outside of New Orleans, 
who, as you know, is producing the new Ship-to-Shore Connector, 
which is the replacement for Landing Craft Air Cushion, better 
known as our LCACs. And we all understand how important for the 
Marine Corps our connectors are.
    You stated, though, that the AAV, which is a 40-year-old 
platform, needs to be replaced immediately. And we know the 
process we have gone through to get to the development of the 
Amphibious Combat Vehicle. Can you tell me, in that context, 
where we are with modernizing those connectors?
    Tell me, where are we with the ACV? How important is it for 
the Marine Corps and total Marine Corps doctrine today to have 
a modernized connector that is used in conjunction with our 
Ship-to-Shore Connectors in what the Marine Corps needs to do 
and its mission statement on having that forced-entry 
capability?
    General Thomas. Thank you, Congressman.
    To your first question about, you know, connectors, you 
know, the Department of the Navy continues to invest in 
connectors, you know, the Landing Craft Air Cushion, to keep 
that, you know, relevant for many years to come. But we are 
also looking towards new concepts, particularly for connectors 
for things like Amphibious Combat Vehicle, for example.
    As you know, you know, amphibious operations are all about 
rapid buildup of combat power ashore, so speed is important. 
The challenge that we learned from the Expeditionary Fighting 
Vehicle is that when you optimize a vehicle for high water 
speed, for example, you are sub-optimizing it for operations on 
land. So we are no longer pursuing that with the Amphibious 
Combat Vehicle.
    But what we are looking at are concepts of, for example--
many concepts. One example would be, you know, essentially a 
sled that the vehicle goes on, gives you that high water speed. 
And then, once the vehicles are ashore, you now have the, you 
know, armored protection and so forth that you need.
    To your question about the Amphibious Combat Vehicle and 
where it is, it is fully funded. It is on track for an IOC 
[initial operating capability] of 2020. And, as you know, that 
will be the first increment of the Amphibious Combat Vehicle. 
We are doing a survivability upgrade on our legacy Amphibious 
Assault Vehicles as a bridge to the second increment of ACV, 
ACV 1.2.
    Mr. Wittman. Very good.
    Let me ask you, too, about amphibious lift. Obviously, our 
Marine Corps has a requirement of 38 ships today. We are at 31. 
As we talk about growing the fleet, it is not just about the 
number of ships, but I believe it is also about fleet 
architecture; it is the type of ships. Give me your perspective 
on where we are today.
    And there has been some discussion about a ship like the 
LHA, the large-deck amphibious ship that does flight 
operations. The Marine Corps has gone from having a ship that 
doesn't have a well deck, now back to having a well deck, as 
part of the Marine Corps expeditionary unit, that amphibious 
readiness group that we know is so critical, as you pointed 
out, to put marines forward.
    Give me your perspective about fleet architecture when it 
comes to our amphibious ships and the importance of, you know, 
large-deck amphibious ship, and especially whether or not it 
should have a well deck. Should it be a platform for aircraft? 
Should it have that multicapability? Give me your perspective. 
Because I know there has been a lot of question about maybe 
replacing that with a smaller aircraft carrier like a CVL 
[light carrier]. Give me the Marine Corps' perspective about 
where that is.
    General Thomas. Congressman, as you rightly point out, it 
is important for us, when we talk about amphibious lift, what 
are we trying to do? And, you know, the requirement is for a 
two Marine expeditionary brigade of lift. And then within that, 
you know, what is the proper balance between how much you are 
going to fly, how much you are going to ride on, you know, your 
amphibious vehicles and your connectors.
    That is an ongoing discussion. As you know, the new big-
deck amphibs [amphibious ships] will have a well deck. And we 
think that that is a proper balance between both aviation and, 
you know, the additional space that you need for your ground 
forces and those maneuver vehicles.
    In terms of fleet architecture, as you know, the Department 
of the Navy is doing several studies, which we are 
participating in, writ large. And, again, when you look at 
threat environment, dispersal, signature are all the things 
that, you know, have to be considered, you know, going forward. 
And those may inform, you know, other options that we haven't 
previously considered.
    From a Marine Corps perspective, though, the big-deck, you 
know, amphib provides a tremendous value to the combatant 
commander and the Nation.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, General, for your testimony.
    I want to talk about how you have had to go to ``The 
Boneyard,'' which is in my district--which they don't like 
using that word, by the way--the Aerospace and Maintenance 
Regeneration Group, or AMARG, in order to bring aircraft out, 
F-18s out, going to be upgraded to C-plus to address some of 
the issues you have talked about today.
    You know, given the fact that you have many squadrons who 
are unable to have the parts and supplies to have a readiness 
level for those units--and I was an A-10 pilot, just so you 
know; I get those challenges and those numbers--are these 
aircraft intended to be additive to the ones in the squadrons? 
If you don't have parts for them, how are you going to have 
parts for additional ones? Or are you swapping them out because 
they have less flight hours on them? What is the cost? How is 
that going? How many are you bringing out?
    I mean, you have seen the reports of, you know, the Marine 
Corps is dumpster diving, you know, to try and meet their 
aviation needs. I wouldn't call AMARG a dumpster, but you can 
see how this is sort of shocking to people who are looking at 
what is going on, where our Marine Corps is having to go back 
into, you know, those that were put into various stages of 
preservation in order to meet its aviation needs.
    General Thomas. Congresswoman, I would just say that when 
you look across any type of model series, as you know, it is an 
enterprise effort. And if you have shortages in certain areas, 
the enterprise will make decisions where it makes sense to 
harvest, you know, in this case could be parts or, in lesser 
cases, with regard to the F-18, you know, the body of an 
airplane that has still got service life on it.
    And it just speaks to the broader point. It is old iron. 
You have got an originally planned service life, you have had 
multiple extensions approved by Naval Air Systems Command, and 
you are just managing that risk.
    And, in some cases, if you've got, you know, full aircraft 
in AMARG or specific parts that are difficult to produce, the 
subs have gone away for whatever reason, it is one of those 
one-offs, you may choose to take advantage of that. Again, it 
is----
    Ms. McSally. But are you swapping out a lower flight-hour 
aircraft with a higher one that is in a unit right now? There 
are reports that there are 10 F-18s being refurbished this 
year, up to a couple dozen total. Can you just give me an 
update and the cost of how that is all happening?
    General Thomas. So, you know, again, you are looking across 
an enterprise of several hundred. I would say, in most cases, 
you are not replacing, you know, airplanes anymore. I mean, 
that was done several years ago. You may be taking components, 
primarily, from those airplanes to repair----
    Ms. McSally. So we are not taking airplanes out of AMARG?
    General Thomas. Well, we are taking airplanes out of AMARG, 
but what we are doing for it--that is, we are not taking an 
airplane out of AMARG and it is necessarily full-up. We may 
take components off of it. Or if you do have service life 
remaining on it--but my understanding is that all of the 
airplanes are, you know, high service time.
    Ms. McSally. Right.
    General Thomas. So if we have life on it, we are just 
trying to get parts from----
    Ms. McSally. Okay. This is confusing me now, because the 
reports were saying that there was a contract with Boeing 
specifically to take these aircraft, 10 this year, up to a 
couple dozen total, upgrade them to the C-plus----
    General Thomas. Right.
    Ms. McSally [continuing]. And get them into operation. So 
are you saying that is not happening?
    General Thomas. No, that is happening.
    Ms. McSally. Okay. And do you know the number, how many, 
and the cost?
    General Thomas. I don't know the cost. I can get that 
information for you.
    Ms. McSally. Okay.
    [The information referred to was not available at the time 
of printing.]
    General Thomas. The number of 10 sounds correct. I would 
check with General Davis.
    Ms. McSally. Yeah, if you don't mind getting back to me on 
that.
    General Thomas. Okay.
    Ms. McSally. Because, again, these are media reports saying 
10 this year and a couple dozen total.
    General Thomas. Yeah.
    Ms. McSally. It would just be helpful to understand.
    General Thomas. Okay.
    Ms. McSally. And, again, you know, I had a squadron of--
needed to get 24 airborne to deploy. I had 27 to make 24. Like, 
they didn't give me 30 to make 24 when we had, you know, a 
backlog in parts. So I am just trying to understand, are you 
adding so squadrons have more airplanes that are, you know, 
more of them sitting unable to fly? Or how----
    General Thomas. You have got many squadrons sitting in 
Beaufort that are remained behind that, you know, they have 
maybe half to two-thirds of the actual shadows that they are 
supposed to have on the flight line.
    Ms. McSally. Right.
    In the parts of the readiness we are talking about here 
with these pilots flying 10 hours a month, I mean, those hours 
are meaningless to me; it is what kind of actual missions you 
are training on that matter. Is it related to flight-hour 
money, or is it all about the parts and the backlog?
    General Thomas. It is the parts and the backlog. It is the 
aircraft.
    Ms. McSally. Okay.
    Are you seeing a pilot retention issue? There are push and 
pull factors. Are you seeing any----
    General Thomas. Today, we have all the pilots that we have. 
We are concerned that we may have some challenges going forward 
based on the plans of the airlines going forward.
    Ms. McSally. Okay.
    General Thomas. And, you know, again, you know, quality of 
life for our marines, you know, a piece of quality of life is 
giving the marines----
    Ms. McSally. Doing your job.
    General Thomas [continuing]. The equipment--exactly.
    Ms. McSally. Yeah. I get it. So I look forward to working 
with you more on this, because I think there are going to be 
some push factors.
    And I am over my time. Thank you, Mr. Chairman.
    Mr. Turner. Thank you, General. Thank you for appearing 
before us today.
    We will be adjourned.
    [Whereupon, at 10:11 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 10, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 10, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 10, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. General Thomas, you obviously have some significant 
challenges before you with respect to modernizing your ground combat 
vehicle fleets. The Amphibious Assault Vehicles are more than 40 years 
old. Your Light Armored Vehicle fleet is on average 26 years old, and 
your M1 Abrams tanks are over 30 years old. I understand that as a 
result of budget constraints you have had to defer modernization 
efforts and are making incremental improvements to current systems. How 
would additional resources in FY17 and FY18 help in accelerating ground 
combat vehicle modernization?
    General Thomas. In order to maintain balanced investment relative 
to other capabilities, the Marine Corps deliberately planned to 
selectively and sequentially modernize the combat and tactical vehicle 
fleets. Achieving a comprehensive modernization of the assault 
amphibian capability remains the highest priority within the portfolio. 
Selective High Mobility Multipurpose Wheeled Vehicle (HMMWV) 
replacement via the first increment of the Joint Light Tactical Vehicle 
(JLTV) program has been timed to field to the elements of the light 
combat portion of the fleet most at risk in conjunction with the first 
phase of Amphibious Combat Vehicle (ACV) program. This approach enables 
an affordable, incremental modernization of the two most pressing gaps 
within the ground combat and tactical vehicle portfolio. All vehicle 
modernization programs are funded to support their acquisition 
strategies and require stable funding in order to execute effectively. 
There is also potential to accelerate the second increment of the JLTV 
program with additional procurement funding in FY20 and beyond, after 
completing low rate initial production. Additional RDT&E funding in 
FY18 and beyond will help to accelerate a critical element of 
modernization, the development of Vehicle Protection Systems for tanks 
and ACVs in order to increase force protection and survivability 
against increasing proliferated anti-tank guided missiles.
    Mr. Turner. It's my understanding the Army and Marines are 
currently testing vehicle active protection systems (APS) for possible 
use on a range of combat vehicles. The current Marine APS technology 
demonstration effort, as understood, involves installing an existing 
Israeli Trophy APS on the M1A1 tank in conjunction with the Army's 
ongoing Expedited APS Non Developmental Item testing. Please describe 
your ongoing APS tests and your plans for the rest of the fiscal year. 
What are some of the challenges you have come across during testing as 
well as some of your successes?
    General Thomas. Your understanding is accurate. The Marine Corps 
evaluation of Trophy is a technology demonstration to understand the 
potential operational application and feasibility of installation and 
integration of the Trophy Active Protection System on the USMC M1A1 
Abrams. The Marine Corps is working closely with the Army's expedited 
APS effort and our evaluation is complementary to the Army evaluation 
of Trophy as applied to the M1A2SEP v2. The Marine Corps' effort 
involves developing a technical package for an installation kit for 
USMC M1A1, installing the Trophy system, assessing Human Systems 
Integration analysis with Marine operators, experimenting and testing 
the M1A1 with APS in order to capture unique operational, employment 
and platform specific challenges and requirements as well as MAGTF 
integration opportunities and challenges, and using lessons learned to 
inform requirements and future deliberate acquisition and integration 
programs. To date, we have completed the analysis, design and 
fabrication of a suitable installation kit as well as leveraging the 
Army's radar testing and tuning. The Marine Corps evaluation of the 
system integrated on a M1A1 Abrams is planned to start at the end of 
April and continue through the end of July. The initial focus will be 
assessing the suitability of the Trophy systems integration by 
performing a user evaluation, assessing stabilization, target tracking, 
slew rate, physical characteristics, bonds and grounds, and main gun 
live fire. Subsequently, live fire events will characterize the Trophy 
system's effectiveness while installed on the M1A1 Abrams. These events 
will assess system performance related to fields of fire and fields of 
view, and target tracking. The primary focus of efforts to date has 
been to rapidly create a suitable installation kit for the Trophy 
system and address immediate technical challenges to ensure the system 
can function as intended when installed on the M1A1 Abrams. The M1A1 
current turret design is not optimized for the installation of the 
Trophy system, resulting in reduced fields of view for the tank 
commander, interference with the employment of the Stabilized 
Commander's Weapon Station, required relocation of the CREW system and 
relocation of several other components. The planned evaluations, which 
will help inform how critical it is to address these challenges, will 
be the focus of development and integration efforts during fiscal year 
2018.
    Mr. Turner. We've heard testimony that the most serious readiness 
concerns are found in aviation units. There's a direct correlation here 
to modernization. General Thomas, how have continued fiscal constraints 
caused by sequestration and continuing resolutions affected Marine 
Corps aviation modernization strategies, and if additional funding were 
available, what programs would the Marine Corps invest in?
    General Thomas. Lowered budgets have shallowed procurement 
profiles, delayed introduction of the F-35B/C, and CH-53K and forced 
the DON to accept risk in Naval Aviation modernization. Meanwhile, 
sustained operational demand over the last 15 years has prematurely 
aged our aircraft, kept them forward deployed, and flown them on harder 
missions at longer ranges. With additional funding, Marine aviation 
could simultaneously improve aviation readiness by investing in and 
accelerating its transition to new platforms. For example, by 
increasing and optimizing the F-35 ramp rate to the desired and 
executable amount of aircraft that could be procured, Marine aviation 
will transition from legacy TACAIR platforms to F-35 five years ahead 
of forecast. Additionally, Marine aviation will continue to fully fund 
the readiness accounts towards executable levels across the FYDP. 
Although readiness accounts will improve with funding, they remain a 
concern and require full funding in future years.
    Mr. Turner. During this period of reduced funding, but not reduced 
missions or operational tempo, what types of investments has the Marine 
Corps sacrificed to sustain the deployable readiness levels of the 
operating forces?
    General Thomas. The combination of inconsistent funding and the 
continuously high operational tempo has frustrated the Marine Corps' 
modernization efforts. Operational tempo is not expected to slow and 
the readiness of deployable forces remains a top priority. That 
readiness comes at the cost of much needed modernization.
    The pace at which we modernize is completely dependent on available 
resources. With fiscal limitations, we have made the conscious decision 
to work within the construct of 185,000 end strength (185K). Therefore, 
we have decided to focus our modernization efforts on:
    <bullet>  The Amphibious Assault Vehicle (AAV) survivability 
upgrade. This will continue to provide a ship to shore self-deploying 
capability bridge until we have replacement for our 40 year old AAVs.
    <bullet>  The Amphibious Combat Vehicle (ACV) 1.1, which is our 
first step in an incremental approach to replacing those AAVs.
    <bullet>  The Joint Light Tactical Vehicle (JLTV), a joint USMC/
U.S. Army program to procure the next generation replacement for the 
venerable High Mobility Multipurpose Wheeled Vehicle (HMMWV).
    <bullet>  Common Aviation Command and Control System (CAC2S) and 
Ground/Air Task Oriented Radar (G/ATOR) which will provide an ability 
to control our airspace enabling freedom of action to employ our 
organic weapons with the speed and tempo that makes the Marine Air 
Ground Task Forces successful.
    <bullet>  Networking-On-The-Move (NOTM) and MQ-21A Blackjack a 
small tactical unmanned aircraft system (UAS) are some of the new 
capabilities that we must buy to support the IW enablers.
    <bullet>  Increase our quantities of Communications Emitter Sensing 
and Attack Systems (CESAS II) and Intrepid Tiger II, an airborne 
communications-band electronic attack pod, in order to support 
increases in end strength.
    However, the aforementioned investments come at the expense of the 
other 150+ programs in need of sustainment and modernization. In most 
cases lower priority programs are underfunded, not procured to the full 
identified requirement, or not sustained at a level that would be 
expected for the Nation's crisis response force.
    While not a direct investment sacrifice, the Marine Corps has made 
the following adjustments to rotational force allocations in order to 
recover readiness for the operating forces to better meet major 
contingency operation response requirements:
    <bullet>  Reduced MV-22 and KC-130 allocations for Crisis Response 
SPMAGTF's in CENTCOM and AFRICOM by 50% and 25%, respectively.
    <bullet>  Reduced a future VMFA squadron deployment in the CENTCOM 
AOR from approximately 6 months to 3 months.
    <bullet>  Replaced a recent VMFA squadron deployment with a VMA 
squadron in order to facilitate readiness recovery in the FA-18 
community. Temporarily reduced the flightline entitlement for deploying 
VMFA squadrons from 12 to 10 aircraft in order to facilitate readiness 
recovery in the FA-18 community.
    Mr. Turner. Modernization not only deals with next generation 
platforms and technology, but also has a direct correlation to 
capacity. Regarding long range precision fires, munitions, and 
ammunition, are you currently experiencing any inventory shortfalls, 
and if so, what are the plans to address them?
    General Thomas. The vast majority of USMC ground ammunition 
inventories are sufficient to satisfy the Total Munitions Requirement. 
However, baseline funding is insufficient to replace training 
expenditures and modernize munitions leading to an increase in 
projected shortfalls. Additional funding was requested for FY17-
Amendment that will help with capacity concerns and improve the 
outlook. The War Reserve Munitions Requirement is prioritized over 
training and has minimal shortfalls. Additional efforts are underway to 
reduce training ammunition expenditures to a level that is fiscally 
feasible while ensuring readiness levels maintain acceptable risk. The 
Guided Multiple Launch Rocket System (GMLRS) is the Marine Corps long-
range precision fires capability. The GMLRS Alternative Warhead (AW) is 
an area-effects rocket designed to replace the GMLRS Dual Purpose 
Improved Conventional Munition (DPICM), which is leaving the inventory 
due to policy restrictions. The Marine Corps began procurement of GMLRS 
AW in FY15. With FY17 funding, we have a sustainable path to reaching 
the Total Munition Requirement for this munition in the mid-2020s. 
However, there will be some risk to Marine Corps long-range area 
effects capability as GMLRS DPICM will be removed from the inventory (1 
January 2019 per current U.S. Policy on Cluster Munitions) prior to 
GMLRS AW reaching the Total Munitions Requirement. Shortfalls of 
critical aviation weapons do exist, but are being mitigated through the 
use of inert training weapons and simulation. Additionally, Overseas 
Contingency Operation (OCO) funding has been helpful, but late to need, 
in further mitigating inventory shortfalls. We expect these shortfalls 
to continue into FY18 due to the existing constrained inventory and 
unplanned expenditures in support of OIR. Efforts are underway to 
pursue maintenance and repair of the existing weapon inventory, which 
will improve life cycle sustainment at significant cost avoidance when 
compared to new weapons procurement.
    Mr. Turner. The Marine Corps has had numerous security cooperation 
engagements in recent years. In light of current readiness and deferred 
modernization shortfalls, do you believe that this type of activity is 
valuable in the long-term, or should they be deferred and the savings 
put back into efforts such as modernizing equipment and facilities 
maintenance?
    General Thomas. The Marine Corps continually seeks to increase 
efficiencies in security cooperation activities. No single Service--or 
country--has the capability or capacity to be everywhere at once. In an 
ambiguous security environment, faced with hybrid warfare, we stay 
ahead of our adversaries by partnering with our allies and partners. 
Marine security cooperation enables and sets the force up for success 
in crisis response, contingencies, and major combat operations. The 
Marine Corps engages with foreign partners to enable their forces to 
operate with ours, to provide access for Marine power projection, to 
build relationships that support strategic objectives, and develop 
Service operational capabilities with minimal impact to readiness. Our 
engagements maintain interoperability with capable partners who will 
share our battlespace, ensure our forces can get to the fight--at any 
clime or place--are trained and ready when they arrive, and can 
alleviate the need for or improve the lethality of the Marine Corps. In 
many ways, security cooperation is what we excel at: partnering in 
peacetime to help the nation avoid war, but prevailing together with 
our partners when conflict arises. Reducing security cooperation 
activities would undermine the interoperability forged with allies and 
partners through over a decade of conflict, threatens Marine access and 
basing established through trust and sustained engagement, and 
jeopardizes forward-training bases and ranges that ensure our forces 
are operationally ready for any fight.
    Mr. Turner. Staying in line with the specific focus of this 
hearing, what are your top three ground force modernization priorities, 
and are they currently fully funded?
    General Thomas. The Amphibious Combat Vehicle (ACV), Joint Light 
Tactical Vehicle (JLTV), and the Ground/Air Task Oriented Radar (G/
ATOR) are the Marine Corps' top ground acquisition priorities, although 
G/ATOR will support the entire MAGTF in ground and aviation mission 
sets. While these programs will be in full rate production over the 
next five years, the Marine Corps will also be taking every opportunity 
to address other modernization priorities, wherever possible, to ensure 
we remain a Lethal Force with a 21st century approach to combined arms 
that integrates information warfare, long-range precision fires, and 
air defense and seeks to destroy and defeat our enemies across five 
domains--air, land, sea, space, and cyberspace. These three 
modernization programs are funded to support their acquisition 
strategies assuming stable funding remains available.
    Mr. Turner. Currently, the Amphibious Combat Vehicle Increment 1.1 
(ACV 1.1) is in the preliminary stages of Engineering Manufacturing and 
Development (EMD) testing with the current schedule requiring about 12 
to 14 months of testing and an operational assessment in the 2nd 
Quarter of FY 2018. If the operational assessment proves successful, 
the Marine Corps would then down-select to one vendor in August 2018 to 
provide 204 vehicles and achieve an initial operational capability 
(IOC) in FY 2020. While admittedly this is an aggressive schedule, if 
additional resources are made available in FY 2017 and beyond, is there 
potential to achieve an earlier IOC for ACV 1.1 and perhaps accelerate 
the development of ACV 1.2?
    General Thomas. Additional resources in 2017 would not accelerate 
the program. Through the efforts of OSD and all other stakeholders, the 
aggressive ACV 1.1 schedule (currently fully funded) has been designed 
to field a much needed capability as quickly as possible, while 
solidifying the requirements and path forward for ACV 1.2.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. The question involves the Amphibious Assault Vehicle 
Survivability Program. In the annual report, the Director pointed out 
that ``additional armor coupon testing is required to fully 
characterize all areas of the crew-occupied space against the expected 
range of threats'' and that ``due to the lack of sufficient quantity of 
armor coupons'' the Program Office deferred the additional armor 
characterization to later in the program. Is the additional armor 
coupon testing recommended by the Director is going to happen when he 
recommends, and if not, why not? Also, if this is a funding issue, can 
Congress help by providing additional funds through a reprogramming 
action or some other way?
    General Thomas. The armor coupon issue on AAV SU was worked out to 
DOT&E satisfaction when the Program Office proposed the use of an EMD 
vehicle to conduct all of the remaining testing, as opposed to 
additional coupons. DOT&E is using the full vehicle exploitation and 
characterization testing conducted from January through March of this 
year to meet their testing requirements. There is no additional funding 
required at this time.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. During this period of reduced funding, but not reduced 
missions or operational tempo, what types of investments has the Marine 
Corps sacrificed to sustain the deployable readiness levels of the 
operating forces? How do we balance combat readiness with cyber 
readiness?
    General Thomas. The combination of inconsistent funding and the 
continuously high operational temp has frustrated the Marine Corps' 
modernization efforts. Operational tempo is not expected to slow and 
the readiness of deployable forces remains a top priority. That 
readiness comes at the cost of much needed modernization.
    The pace at which we modernize is completely dependent on available 
resources. With fiscal limitations, we have made the conscious decision 
to work within the construct of 185,000 end strength (185K). However, 
the Marine Corps' revised POM-18 submission is insufficient to maintain 
either the 185K end strength or for modernizing equipment within an 
acceptable timeline. The Marine Corps would require an estimated 
increase of approximately $5B more per year in order to modernize 
within an acceptable timeline for the 185K force. Therefore, we have 
decided to focus our modernization efforts on:
    <bullet>  The Amphibious Assault Vehicle (AAV) survivability 
upgrade. This will continue to provide a ship to shore self-deploying 
capability bridge until we have replacement for our 40 year old AAVs.
    <bullet>  The Amphibious Combat Vehicle (ACV) 1.1, which is our 
first step in an incremental approach to replacing those AAVs.
    <bullet>  The Joint Light Tactical Vehicle (JLTV), a joint USMC/
U.S. Army program to procure the next generation replacement for the 
venerable High Mobility Multipurpose Wheeled Vehicle (HMMWV).
    <bullet>  Common Aviation Command and Control System (CAC2S) and 
Ground/Air Task Oriented Radar (G/ATOR) which will provide an ability 
to control our airspace enabling freedom of action to employ our 
organic weapons with the speed and tempo that makes the Marine Air 
Ground Task Forces successful.
    <bullet>  Networking-On-The-Move (NOTM) and MQ-21A Blackjack a 
small tactical unmanned aircraft system (UAS) are some of the new 
capabilities that we must buy to support the IW enablers.
    <bullet>  Increase our quantities of Communications Emitter Sensing 
and Attack Systems (CESAS II) and Intrepid Tiger II, an airborne 
communications-band electronic attack pod, in order to support 
increases in end strength.
    However, the aforementioned investments come at the expense of the 
other 150+ programs in need of sustainment and modernization. In most 
cases lower priority programs are underfunded, not procured to the full 
identified requirement, or not sustained at a level that would be 
expected for the Nation's crisis response force.
    While not a direct investment sacrifice, the Marine Corps has made 
the following adjustments to rotational force allocations in order to 
recover readiness for the operating forces to better meet major 
contingency operation response requirements:
    <bullet>  Reduced MV-22 and KC-130 allocations for Crisis Response 
SPMAGTF's in CENTCOM and AFRICOM by 50% and 25%, respectively.
    <bullet>  Reduced a future VMFA squadron deployment in the CENTCOM 
AOR from approximately 6 months to 3 months.
    <bullet>  Replaced a recent VMFA squadron deployment with a VMA 
squadron in order to facilitate readiness recovery in the FA-18 
community.
    <bullet>  Temporarily reduced the flightline entitlement for 
deploying VMFA squadrons from 12 to 10 aircraft in order to facilitate 
readiness recovery in the FA-18 community.
    Lastly, ``Cyber readiness'' is inherent to ``combat readiness.'' 
All warfighting functions are increasingly dependent on freedom of 
action in cyberspace--operating and defending our systems and networks, 
and projecting power through cyberspace. The Marine Corps--Operating 
Forces enabled by the Supporting Establishment--require resilient and 
responsive cyberspace operations capabilities for mission 
accomplishment. Without freedom of action in cyberspace, our ability to 
plan operations, deploy and sustain Marines, find and fix targets, 
conduct fires, and command and control forces would be severely 
compromised.
    Ms. Rosen. General, you named electronic warfare, cyber, and 
intelligence capabilities as areas requiring the most growth in 
response to my question about the equipment-related challenges 
associated with standing up an additional 12 active duty infantry 
battalions and growing the Marine Corps writ-large. How does the Marine 
Corps plan to balance equipping new units, while also continuing to 
modernize in a budget constrained environment?
    General Thomas. With the additional 3,000 Marines added to our end 
strength in the FY17 NDAA, we look to close some of our capability gaps 
by investing in the Information Warfare, Long Range Precision Fires, 
and Air Defense communities. However, the current budget constraints 
will not allow us to sufficiently modernize even this 185,000 person 
force. Additionally, these increased capabilities will not meet the 
Marine Corps' desired capacity for a 1:3 deployment to dwell ratio. 
Growing the Marine Corps past 185,000 would help mitigate dwell issues, 
but we risk building a hollow force if no modernization funding 
accompanies the growth. With fiscal limitations, we have made the 
conscious decision to work within the construct of 185,000 end strength 
(185K). However, the Marine Corps' revised POM-18 submission is 
insufficient to maintain either the 185K end strength or for 
modernizing equipment within an acceptable timeline. Therefore, we have 
decided to focus our modernization efforts on:
    <bullet>  The Amphibious Assault Vehicle (AAV) survivability 
upgrade. This will continue to provide a ship to shore self-deploying 
capability bridge until we have replacement for our 40 year old AAVs.
    <bullet>  The Amphibious Combat Vehicle (ACV) 1.1, which is our 
first step in an incremental approach to replacing those AAVs.
    <bullet>  The Joint Light Tactical Vehicle (JLTV), a joint USMC/
U.S. Army program to procure the next generation replacement for the 
venerable High Mobility Multipurpose Wheeled Vehicle (HMMWV).
    <bullet>  Common Aviation Command and Control System (CAC2S) and 
Ground/Air Task Oriented Radar (G/ATOR) which will provide an ability 
to control our airspace enabling freedom of action to employ our 
organic weapons with the speed and tempo that makes the Marine Air 
Ground Task Forces successful.
    <bullet>  Networking-On-The-Move (NOTM) and MQ-21A Blackjack a 
small tactical unmanned aircraft system (UAS) are some of the new 
capabilities that we must buy to support the IW enablers.
    <bullet>  Increase our quantities of Communications Emitter Sensing 
and Attack Systems (CESAS II) and Intrepid Tiger II, an airborne 
communications-band electronic attack pod, in order to support 
increases in end strength.
    However, the aforementioned investments come at the expense of the 
other 150+ programs in need of sustainment and modernization. In most 
cases lower priority programs are underfunded, not procured to the full 
identified requirement, or not sustained at a level that would be 
expected for the Nation's crisis response force.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CARBAJAL
    Mr. Carbajal. General Thomas, it is my understanding the Marine 
Corps has been working on developing body armor that provide better fit 
and coverage for female Marines. There were some concerns that the 
Marines Corps was just developing more sizes rather than developing 
female-specific body armor. Can you update this sub-committee on what 
approach the Marine Corps is taking and where we are in terms of 
getting these body armors to our female Marines? Why isn't the Marine 
Corps taking the same approach as the Army?
    General Thomas. The Marine Corps fits our female Marines with the 
best personal protection systems available. The Plate Carrier (PC) is 
the primary body armor system for the Marine Corps. The PC is 3.5lbs 
lighter and provides better form, fit, and function to female Marines 
than the Army's Female Improved Outer Tactical Vest (FIOTV). The female 
specific modifications made to the FIOTV are either already 
incorporated in the Marine Corps' PC or are in areas that were removed 
from the Army's PC, which provides a better fit overall for the entire 
population of Marines. Fit studies conducted by the Marine Corps 
throughout 2015 and 2016, focusing on our body armor systems, have 
shown that Marines and Soldiers (both female and male) prefer the 
Marine Corps PC to the Army's IOTV/FIOTV and their new Modular Scalable 
Vest (MSV)(replacing the IOTV) in form, fit, and function.
    In 2013, the Marine Corps received the results of a comprehensive 
anthropometric survey of U.S. Marines conducted through the Natick 
Soldier Research, Development and Engineering Center. The survey 
incorporated (94) directly-measured dimensions, (39) derived dimensions 
and 3D scans of 1,301 male and 620 female Marines. This survey provides 
the large body of data needed to inform the Marine Corps' design and 
engineering needs and is the basis of the physical measurements used to 
inform the design of personnel protective and load bearing equipment, 
as well as clothing and individual warfighter equipment to accommodate 
small-statured (2nd percentile) females through large-statured (98th 
percentile) males. In the rare cases where a Marine falls outside of 
the 2nd percentile female and 98th percentile male parameters, the 
Marine Corps procures custom sized uniforms and equipment to ensure the 
Marine is properly fitted with mission essential capabilities.
    The Marine Corps is currently developing the Plate Carrier, 
Generation III (PC Gen III). The PC Gen III is less bulky, lighter in 
weight, and provides a smaller overall footprint than the current PC 
while maintaining the same soft armor coverage and protection level. It 
is 1.5" shorter than the current PC, provides reduced shoulder width 
for a better shoulder and weapon stock weld, and has graded shoulder 
strap lengths to better accommodate smaller and larger Marines. PC Gen 
III will accommodate the 2d percentile female to 98th percentile male 
and will be 4.8 lbs lighter and 2" shorter than the FIOTV. The Army is 
currently evaluating the PC Gen III as a potential solution for their 
Soldier Protection System Increment II vest. With the information 
developed through multiple fit studies of the plate carrier systems, 
neither the Army nor Marine Corps plan to make female specific variants 
of their future body armor systems.
    The Marine Corps has a standing Improved Personal Protective 
Equipment System (IPPES) Integrated Product Team (IPT) to develop 
requirements for the next generation of personal protective equipment. 
The U.S. Army Maneuver Center of Excellence is an active participant in 
the IPPES IPT, and both services continue to work hand-in-hand in our 
research and development efforts for individual combat and personal 
protective equipment--particularly with regards to female Marines/
Soldiers.

                                  [all]
</pre></body></html>
